Audit Report




OIG-12-001
Audit of the Office of Thrift Supervision’s Financial Statements
for the Periods October 1, 2010 through July 20, 2011 and
October 1, 2009 through September 30, 2010
October 17, 2011




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                October 17, 2011


            MEMORANDUM FOR JOHN E. BOWMAN, ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Office of Thrift Supervision’s Financial
                                     Statements for the Periods October 1, 2010 through July 20,
                                     2011 and October 1, 2009 through September 30, 2010


            I am pleased to transmit the attached audited Office of Thrift Supervision’s (OTS)
            financial statements for the periods October 1, 2010 through July 20, 2011, and
            October 1, 2009 through September 30, 2010. Under a contract monitored by the
            Office of Inspector General, Lani Eko & Company, CPAs, PLLC (Lani Eko), an
            independent certified public accounting firm, performed an audit of the financial
            statements of OTS as of July 20, 2011 and September 30, 2010, and for the
            periods then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE
            Financial Audit Manual.

            The following reports, prepared by Lani Eko, are incorporated in the attachment:

                    •   Independent Auditor’s Report; and
                    •   Independent Auditor’s Report on Internal Control over Financial Reporting
                        and on Compliance and Other Matters.

            In its audit, Lani Eko found:

                    •   that the financial statements were fairly presented, in all material
                        respects, in conformity with accounting principles generally accepted in
                        the United States of America,
                    •   no matters involving internal control over financial reporting that are
                        considered material weaknesses, and
                    •   no instances of reportable noncompliance with laws and regulations
                        tested.
Page 2


In connection with the contract, we reviewed Lani Eko’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of internal
control or compliance with laws and regulations. Lani Eko is responsible for the
attached auditor’s reports dated September 9, 2011, and the conclusions expressed
in the reports. However, our review disclosed no instances where Lani Eko did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment
     2011
Financial Report




Office of Thrift
 Supervision
                      Table of Contents
                                                        Page


Independent Auditor's Report …………….….………..…..            1

Financial Statements ………………..………………..….…..               3


Notes to Financial Statements ……..…………...……….…           6


Independent Auditor's Report on Internal Control Over
      Financial Reporting and on Compliance and
      Other Matters …………………………….….....                   15
                           INDEPENDENT AUDITOR’S REPORT



To the Inspector General
U.S. Department of the Treasury:

We have audited the accompanying statements of financial position of the U.S. Department of
the Treasury, Office of Thrift Supervision (OTS) as of July 20, 2011 and September 30, 2010,
and the related statements of operations and changes in net position, and cash flows for the
periods October 1, 2010 through July 20, 2011, and October 1, 2009 through September 30,
2010. These financial statements are the responsibility of the OTS’s management. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. Those standards and the OMB Bulletin No. 07-04 require
that we plan and perform the audits to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and the significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the OTS as of July 20, 2011, and September 30, 2010, and the results of
its operations and its cash flows for the periods October 1, 2010 through July 20, 2011, and
October 1, 2009 through September 30, 2010 in conformity with accounting principles generally
accepted in the United States of America.

As discussed in Note 1 to the financial statements, in accordance with the provisions of
the Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law No: 111-203,
effective July 21, 2011, OTS’ functions were transferred to the Office of the Comptroller of the
Currency, Federal Deposit Insurance Corporation, and the Board of Governors of the Federal
                                               1
Reserve System. The financial statements referred to above were prepared on a going-concern
basis.


In accordance with Government Auditing Standards, we have also issued our report dated
September 9, 2011, on our consideration of the OTS’s internal control over financial reporting
and on our tests of its compliance with certain provisions of laws and regulations. The purpose of
that report is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on internal control over
financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the
results of our audits.




September 9, 2011
Alexandria, Virginia




                                                 2
                             UNITED STATES DEPARTMENT OF THE TREASURY
                                    OFFICE OF THRIFT SUPERVISION
                                 STATEMENTS OF FINANCIAL POSITION
                                             (In thousands)


                                                                          As of                 As of
                                                                         July 20,           September 30,
                                                                          2011                  2010
    Assets


       Cash and cash equivalents (Note 3)                          $          285,383   $         138,443
       Accrued interest receivable                                                -                 2,028
       Accounts receivable                                                      9,516                 510
       Investments (Note 4)                                                        -              213,861
       Property and equipment, net (Note 5)                                    26,773              28,293
       Other assets                                                               127               1,327

             Total Assets                                          $          321,799   $         384,462

    Liabilities and Net Position

    Liabilities

       Accounts payable                                            $              -     $           1,312
       Accrued annual leave                                                    13,021              12,921
       Workers' compensation liability (Note 6)                                 3,196               3,196
       Deferred compensation liability (Note 7)                                   240                 287
       Deferred assessment revenue                                                -                51,310
       Deferred rent credit                                                       -                 2,015
       Post-retirement benefit liability (Note 8)                              21,545              20,481
       Other retirement plan liabilities (Note 9)                               2,353               8,380
       Payroll, benefits, and withholding                                       6,991               8,692
       Other accrued liabilities (Note 10)                                      3,556               3,296

             Total Liabilities                                     $           50,902   $         111,890

    Net Position

       Assumed capital                                             $           41,037   $          41,037
       Retained earnings                                                      229,860             231,535

             Total Net Position (Note 11)                          $          270,897             272,572

             Total Liabilities and Net Position                    $          321,799   $         384,462
 

The accompanying notes are an integral part of these financial statements. 




                                                         3
                       UNITED STATES DEPARTMENT OF THE TREASURY
                              OFFICE OF THRIFT SUPERVISION
                  STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                       (In thousands)


                                                                       For the Period        For the Year
                                                                         October 1,             Ended
                                                                         2010 Thru          September 30,
                                                                        July 20, 2011            2010
    Revenues

       Industry assessments                                       $           164,665   $         214,422
       Examination, application, and security filing fees                       2,597               3,984
       Interest (Notes 3 & 4)                                                   3,649               4,656
       Rental income (Note 12)                                                  4,254               5,690
       Other                                                                    2,739               1,060

       Total Revenues                                             $           177,904   $         229,812

    Expenses

       Personnel compensation                                     $            96,572   $         121,631
       Benefits (Note 9)                                                       56,991              62,924
       Rent, communication, and utilities (Note 13)                             4,387               7,270
       Travel and transportation                                               11,921              17,010
       Services                                                                 5,241               8,358
       Data processing                                                          1,055               2,586
       Building expenditures                                                    4,304               5,070
       Office equipment and software                                            1,859               2,538
       Miscellaneous                                                            1,635               3,127
       Depreciation and amortization                                            1,519               1,533

       Total Expenses                                             $           185,484   $         232,047

    Excess of Expenses over Revenues Before Other Gains           $           (7,580)   $             (2,235)

    Other Gains

       Gain on Sale of Investments (Note 4)                       $             5,905   $         -

    Net Excess of Expenses over Revenues                          $           (1,675)   $             (2,235)

    Net Position, Beginning Balance                                           272,572             274,807

    Net Position, Ending Balance                                  $           270,897   $         272,572
 

The accompanying notes are an integral part of these financial statements. 


                                                            4
 
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION
                                    STATEMENT OF CASH FLOWS
                                           (In thousands)

                                                                                For the
                                                                                Period            For the Year
                                                                              October 1,             Ended
                                                                              2010 Thru          September 30,
                                                                             July 20, 2011            2010
    CASH FLOWS FROM OPERATING ACTIVITIES

    Excess of expenses over revenues                                  $            (1,675)   $         (2,235)

    Adjustments to reconcile excess of expenses over revenues to
      net cash provided by operating activities:
          Amortization of net bond premium                                          4,172                3,093
          Depreciation and amortization                                             1,519                1,533

    Changes in assets and liabilities:
         (Increase) in receivables                                                 (6,978)               (160)
         Decrease in other assets                                                    1,200                 423
         Increase/(decrease) in accounts payable                                   (1,312)             (1,273)
         (Decrease) in other liabilities                                          (59,676)             (4,374)

          Net cash used in operating activities                       $           (62,750)   $         (2,993)

    CASH FLOWS FROM INVESTING ACTIVITIES

          Purchases of investments                                    $           (15,310)   $        (34,846)
          Maturities of investments                                               225,000               50,000
          Purchase of equipment                                                       -                (1,385)

          Net cash provided by investing activities                   $           209,690    $          13,769

    Net cash provided by operating and investing activities           $           146,940    $          10,776

    Cash and cash equivalents, beginning of year                                  138,443              127,667

    Cash and cash equivalents, end of year                            $           285,383    $         138,443

The accompanying notes are an integral part of these financial statements.




                                                              5
 
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


1. REPORTING ENTITY

The Office of Thrift Supervision (OTS) was created when the Financial Institutions Reform, Recovery, and
Enforcement Act of 1989 (FIRREA) abolished the Federal Home Loan Bank Board (FHLBB) and transferred all
examination and supervisory activities to OTS under the Department of the Treasury. The primary functions of
OTS are to: (1) charter federal savings and loan associations; (2) adopt regulations governing the operation of the
thrift industry; (3) conduct examinations of federal and state chartered savings institutions and their holding
companies; and (4) supervise compliance with federal laws and regulations and OTS directives, taking measures
needed to enforce such compliance and rehabilitate troubled institutions. FIRREA provides that OTS assess the
institutions it regulates to recapture operating costs. Assessments are collected semiannually on January 31 and July
31.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer Protection Act,
which includes the Enhancing Financial Institution Safety and Soundness Act of 2010 (the “Act”). The Act
abolishes OTS effective 90 days after the transfer date and transfers its duties to the Office of the Comptroller of the
Currency (OCC), the Board of Governors of the Federal Reserve (Federal Reserve) and the Federal Deposit
Insurance Corporation (FDIC) on July 21, 2011 (the “transfer date”). Under the Act, the transfer of OTS functions
to the OCC includes rule making authority, personnel, property and funds relating to Federal savings associations.

As part of a joint implementation plan it was agreed between all the affected agencies (i.e., OTS, OCC, FDIC and
the Federal Reserve) that all OTS assets, except for a reserve of $2.2 million for wind up costs and all liabilities
would transfer from OTS to OCC on the transfer date. The reserve set aside for wind up activities includes salaries,
benefits, official travel, miscellaneous services, supplies and other unexpected cost. In addition, OCC will be the
administrator of The Pentegra Defined Benefit Plan for Financial Institutions (“Pentegra DB Plan”) (formerly know
as the Financial Institutions Retirement Fund or “FIRF”) and OTS 401(k) Plan (currently administered by Schwab)
(formerly know as Financial Institutions Thrift Plan (“FITP”)).

2. SIGNIFICANT ACCOUNTING POLICIES

BASIS OF PRESENTATION

OTS has historically prepared its financial statements in accordance with generally accepted accounting principles
based upon accounting standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. In October 1999, the American Institute of Certified Public Accountants designated the
Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial statements of
federal government entities with respect to the establishment of generally accepted accounting principles. FASAB
has indicated, in the Statement of Federal Financial Accounting Standards (SFFAS) No. 34 “The Hierarchy of
Generally Accepted Accounting Principles, Including the Application of Standards Issued by the Financial
Accounting Standards Board,” that financial statements prepared based upon accounting standards published by the
FASB may also be regarded as being in accordance with generally accepted accounting principles for those federal
entities such as OTS that have issued financial statements based upon FASB accounting standards in the past.
Accordingly, consistent with historical reporting, OTS financial statements are presented in accordance with
accounting standards published by FASB.

CASH AND CASH EQUIVALENTS

Cash and cash equivalents consist of OTS’s account at the Department of the Treasury and funds invested overnight
by Treasury on behalf of OTS.

INVESTMENTS (THROUGH JULY 19, 2011)

Effective January 1, 1994, OTS adopted Statement of Financial Accounting Standards (SFAS) No. 115,
“Accounting for Investments in Certain Debt and Equity Securities.” Under the statement, OTS is required to



                                                           6
                            UNITED STATES DEPARTMENT OF THE TREASURY
                                   OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


2. SIGNIFICANT ACCOUNTING POLICIES (continued)
classify investment securities under three categories: (1) trading, (2) available for sale, and (3) held to maturity. All
of the agency’s investments consist of Treasury obligations. OTS has the intent and ability to hold these
investments to maturity. Therefore, all investments are classified as held to maturity and are stated at amortized
cost. Certain Treasury securities are purchased at a discount or premium. Premiums and discounts are amortized
over the term of the security using the interest method.

POST-RETIREMENT BENEFITS

OTS provides certain health and life benefits for all retired employees that meet eligibility requirements. Effective
January 1, 1993, OTS adopted SFAS No. 106, “Employers’ Accounting for Postretirement Benefits Other Than
Pensions,” to account for its share of the costs of those benefits. Under this statement, OTS’s share of the estimated
costs that will be paid after retirement is being accrued by charges to expense over the employees’ active service
periods to the dates that they are fully eligible for benefits, except that OTS has elected to amortize the transition
amount (unfunded cost at January 1, 1993) over 20 years beginning in 1993 in accordance with the option available
in the statement. Prior to 1993, OTS expensed its share of the costs as the retirees incurred claims and as OTS paid
premiums. Pursuant to an agreement with the Office of Personnel Management (OPM) in 1994, OTS agreed to pay
a one-time fee to OPM in consideration of OPM assuming the health care portion of the post-retirement plan
liability.

ANNUAL, SICK, AND OTHER LEAVE

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance in the accrued
annual leave account reflects current pay rates. Sick leave and other types of nonvested leave are charged to
operating costs as taken.

PROPERTY AND EQUIPMENT

Fixed assets acquired by OTS are capitalized at cost. Individual fixed assets with costs in excess of $50,000 and
bulk purchases with costs in excess of $500,000 are capitalized. Aggregate purchases of multiple items directly
related to a specific project (for example, leasehold improvements) are capitalized when the total cost exceeds a
minimum threshold of $500,000, and the annual amortization amount exceeds $50,000. The building owned by
OTS is being depreciated over 50 years. The agency’s capitalized furniture, fixtures and equipment are depreciated
over 3 to 5 years. Depreciation is computed on a straight-line basis.

INCOME TAXES

As an agency of the Department of the Treasury, OTS is exempt from all federal and state taxes based on income.
OTS is also exempt from state and local property and real estate taxes.

3. CASH AND CASH EQUIVALENTS

OTS ceased investing in overnight securities prior to the transfer date which resulted in a cash balance only. The
following table summarizes the balances of cash and cash equivalents (in thousands):
                                                As of                      As of
                                                 July 20                September 30
                                                  2011                      2010
 Cash                                    $          285,383         $          1,000
 Overnight investment with Treasury                       -                  137,443
 Total cash and cash equivalents         $          285,383         $        138,443



                                                           7
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                      NOTES TO FINANCIAL STATEMENTS


3. CASH AND CASH EQUIVALENTS (continued)

Interest earned on cash and overnight investments totaled $0.1 million for 2011 and 2010.



4. INVESTMENTS

All investment securities, including those with maturities through August 2017, were redeemed on July 20, 2011 to
accomplish the transfer of funds to the OCC on the transfer date in accordance with the Act. The market value on
July 20 was $190.9 million resulting in a $5.9 million gain on sale of investments. The summarized amortized cost
and market value of these securities is provided below (in thousands); and the dollar amounts are zero as of July 20,
2011 since the securities were redeemed:

                                                                As of                            As of
                                                               July 20                        September 30
                                                                2011                              2010
 Face value                                       $                      -                $         210,000
 Unamortized premium, net of unamortized discount                        -                            3,861

 Book value of investments held to maturity            $                 -                $        213,861

 Market value                                          $                 -                $        220,847

Effective interest yields ranged from .60 percent to 3.57. Interest earned on these investments totaled $3.5 million
and $4.6 million for 2011 and 2010, respectively.


5. PROPERTY AND EQUIPMENT

The following table summarizes the fixed asset balances (in thousands):

                                                                              As of                         As of
                                                                             July 20                     September 30
                                                                              2011                           2010
 Land                                                             $               7,101            $            7,101
 Building                                                                       49,188                         49,188
 Furniture, fixtures, and equipment                                               3,138                         4,256
 Leasehold Improvements                                                           1,852                         1,852
   Total cost                                                     $             61,279             $           62,397

 Accumulated depreciation, building                               $           (31,636)             $          (30,758)
 Accumulated depreciation, furniture, fixtures, and equipment                  (1,694)                         (2,287)
 Accumulated amortization, leasehold improvements                              (1,176)                         (1,059)
  Total accumulated depreciation and amortization                 $           (34,506)             $          (34,104)

 Property and equipment, net                                      $             26,773             $           28,293


                                                           8
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS




6. WORKERS’ COMPENSATION LIABILITY

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Benefit claims
incurred for active and former employees of OTS and its predecessor, the Federal Home Loan Bank Board, are
administered by the U.S. Department of Labor (DOL) and are ultimately paid by OTS. Actuarial estimates of future
workers’ compensation estimates are generated by DOL. The estimated actuarial liability for FECA benefits
includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation
cases. This method utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. The annual benefit payments have been discounted to present value using

OMB’s economic assumptions for 10-year Treasury notes and bonds. Based on information provided by DOL and
the Department of the Treasury, OTS estimates that its FECA liability was $3.2 million as of July 20, 2011 which
remains unchanged from September 30, 2010. A revised liability estimate was unavailable on July 20, 2011;
however, the potential difference in amount is considered not material to OTS financial statements. Actual FECA
expenses currently payable are included in other accrued liabilities and totaled $854 thousand and $894 thousand as
of July 20, 2011 and September 30, 2010, respectively. Changes in the actuarial liability and payments related to
FECA are reflected as reductions or increases in benefits expense in the appropriate year.

7. DEFERRED COMPENSATION LIABILITY

Under provisions of FIRREA, OTS assumed the Deferred Compensation Plans of the employees transferred from
the Federal Home Loan Banks of Dallas and San Francisco. These plans allowed employees to defer a portion of
their income and provided for employer matching contributions. OTS froze these plans and discontinued all plan
deferrals or employer matches effective January 1, 1991. Remaining participants still accrue benefits that are
funded by OTS.

8. POST-RETIREMENT BENEFIT LIABILITY

OTS sponsors a life insurance plan (the Plan) for all employees that meet eligibility requirements. The agency funds
benefit costs principally on a pay-as-you-go basis, with retiree contributions that are adjusted annually based on
certain factors, some of which are discretionary. The Plan is unfunded, with participants paying a portion of the
costs. As stated in the Significant Accounting Policies, OTS changed its accounting policy with respect to the Plan
as of January 1, 1993. OTS elected to defer recognition of the Plan’s transition obligation and amortize such
obligation over 20 years on a straight-line basis.

A Memorandum of Understanding (MOU) was signed in December 1994 between OPM and OTS. The purpose of
the MOU was to implement legislation permitting annuitants who retired from OTS prior to January 1995, and who
were enrolled in the OTS health plan, to enroll in the Federal Employees Health Benefits (FEHB) plan for coverage
effective on or after January 8, 1995.

OTS agreed to pay a one-time fee to OPM of approximately $11.0 million in consideration of OPM assuming the
health portion of the post-retirement plan liability. In accordance with SFAS No. 106, the agreement with OPM
constitutes a settlement and, accordingly, OTS recognized a gain on the settlement of approximately $16.7 million in
1994. Such gain includes the health portion of the transition obligation that OTS elected to initially recognize over
20 years in 1993. The post-retirement liability of $21.5 million in the Statements of Financial Position at July 20,
2011 and $20.4 million at September 30, 2010 represents OTS’s recognized portion of the remaining liability for
participants’ future life insurance benefits.



                                                          9
                            UNITED STATES DEPARTMENT OF THE TREASURY
                                   OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


8. POST-RETIREMENT BENEFIT LIABILITY (continued)

Net periodic post-retirement benefit cost for life insurance provisions under the Plan included the following
components in 2011 and 2010 (in thousands):

                                                                                     For the Years Ended
                                                                       July 20                   September 30
                                                                        2011                         2010
 Service cost - current year                                    $             495            $            569
 Interest on accumulated post-retirement benefit
 obligation                                                                    947                          1,086
 Amortization of net loss                                                       41                              -
 Amortization of transition obligation                                         204                            253
 Net post-retirement benefit expense                            $            1,687           $              1,908

 The following table sets forth the Plan’s funded status reconciled with the liability recognized in the
 Statements of Financial Position (in thousands):
                                                                       July 20                   September 30
                                                                        2011                         2010
 Accumulated post-retirement benefit obligation:
      Retirees                                                  $          13,011            $             13,627
      Other fully eligible participants                                       263                             207
      Other active participants                                             9,289                          10,070
 Accumulated post-retirement benefit obligation                            22,563                          23,904

 Unrecognized transition obligation                                          (365)                           (568)
 Unrecognized net (loss)                                                     (653)                         (2,855)
 Total post-retirement benefit liability                        $          21,545            $             20,481

The weighted average discount rates used in estimating the accumulated post-retirement benefit obligations were 5.5
percent at June 30, 2011 and 5.0 percent at September 30, 2010.


9. OTHER RETIREMENT PLAN LIABILITIES

OTS employees participate in three retirement systems. Two are administered by OPM. For funding purposes,
these two plans function as defined contribution plans; however, the retirement benefits accrue in a manner
consistent with a defined benefit plan. The third is a private defined benefit plan, the Financial Institutions
Retirement Fund (FIRF), administered by Pentegra Retirement Services (Pentegra).

The Civil Service Retirement System (CSRS) is two-tiered. For employees hired prior to January 1, 1984, OTS
withholds 7 percent of regular earnings. OTS also contributed 7 percent of regular earnings during 2011 and 2010
for each employee in this tier. The sum is transferred to the Civil Service Retirement Fund, from which this
employee group will receive retirement benefits. Employees do not contribute to, or receive benefits from, the
Social Security System.




                                                          10
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


9. OTHER RETIREMENT PLAN LIABILITIES (continued)

For employees with more than 5 years of (not necessarily continuous) service, hired on or after January 1, 1984,
who are covered under CSRS/Offset, OTS withholds 0.8 percent of regular earnings, in addition to Social Security
withholding. OTS also contributed 7 percent of regular earnings in 2011 and 2010, for each employee

in this tier. When regular earnings exceed the FICA maximum wages, employees covered under this tier of CSRS
are required to have 7 percent of their earnings withheld. This employee group will receive retirement benefits from
both CSRS and the Social Security System.

Beginning in January 1987, all employees hired since January 1, 1984, either as new employees or having less than
5 years of accumulated service (with a break in service over one year) are included in the Federal Employee
Retirement System (FERS). For these employees, OTS withheld 0.8 percent of regular earnings in 2011 and 2010.
The agency contributed 11.2 percent of regular earnings in both 2011 and 2010 for FERS employees. This group of
employees will receive benefits from FERS as well as the Social Security System, to which they concurrently
contribute.

Pursuant to FIRREA, the Office of Regulatory Activities (ORA) and its twelve examination districts became part of
OTS. OTS assumed the cost of their retirement system, which is part of FIRF. OTS contributes a percentage of
total FIRF salary. The percentage varies from year to year. Employees do not contribute to FIRF but do contribute
to the Social Security System. Changes in percentages are based on the number and average age of active FIRF
employees, the number of people who have retired, the benefits paid out, and adjustments to the actuarial gain or
loss.

The Minimum Required Contribution (MRC) for each FIRF plan year consists of two components: (1) normal cost
and (2) amortization of the retirement plan’s shortfall, if any. For the plan year beginning July 1, 2011, OTS’s
estimated shortfall was $62.0 million. The plan year shortfall is amortized over approximately 7 years in
conformance with the Pension Protection Act of 2006 and IRS Rules.

Prior to OTS’s fiscal year closing, OTS receives notice of the plan year MRC from the FIRF plan administrator
Pentegra Retirement Services. OTS recognizes one-fourth of the MRC as current fiscal year expense and the
remainder in the next fiscal year. The MRC for the plan year beginning July 1, 2010 was $33.6 million, which was
reduced by paying it in full early in the plan year. Accordingly, OTS recognized $8.4 million in expenses for the
fourth quarter of fiscal year 2010. The remainder, $25.2 million is expensed in fiscal year 2011.

The plan year beginning July 1, 2008 was the first plan year under the rules of the Pension Protection Act of 2006
(PPA). Under this law, the MRC consists of the Target Normal Cost and a shortfall amortization, if any. The
shortfall amortization is calculated by using the OTS funding target. The key components are the net present value
of future liabilities of $524 million, and plan assets valued at $462 million. The resulting funding percentage
provided by Pentegra Retirement Services of 88.2% is below the 100% minimum required funding target by the
PPA for the plan year. Therefore, OTS’s MRC for the plan year beginning July 1, 2010 equals the Target Normal
Cost plus the minimum contribution amortization shortfall totaling $43.5 million. Accordingly, OTS recognizes
$2.4 million in expenses and OCC recognizes $8.5 for the fourth quarter of fiscal year 2011. The remainder, $32.6
million will be expensed in fiscal year 2012 by OCC.

OTS funds a portion of CSRS and FERS pension benefits and collects the appropriate payroll withholdings. OTS
does not account for the assets of either government retirement plan, nor does it have actuarial data with respect to
accumulated plan benefits or the unfunded pension liability relative to its employees. These amounts are reported
by OPM for both government retirement systems and are not allocated to the individual agencies.

OTS also offers its own Defined Contribution (DC) plan. Prior to May 10, 2009, OTS employees participated in the
Financial Institutions Thrift Plan (FITP), a 401(k) plan administered by Pentegra Retirement Services. Effective
May 10, 2009, OTS switched providers and began offering its own plan, the OTS 401(k) Plan administered by


                                                          11
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                       NOTES TO FINANCIAL STATEMENTS


9. OTHER RETIREMENT PLAN LIABILITIES (continued)

Charles Schwab. CSRS and FERS employees participate in both the TSP and the OTS 401(k) Plan and FIRF
employees participate in the OTS 401(k) Plan only. Between the TSP and the OTS 401(k) Plan, OTS matches
employee contributions as follows: up to 4 percent for CSRS participants, up to 9 percent for FERS participants,
and up to 7 percent for FIRF participants.

The liabilities for all OTS plans, included in other retirement plan liabilities in the accompanying Statements of
Financial Position, are as follows (in thousands):

                              As of                        As of
                             July 20                  September 30
                              2011                        2010
 FIRF Total           $           2,353           $          8,380

 The expenses for all OTS plans, included in benefits expense in the accompanying Statements of Operations
 and Changes in Net Position, are as follows (in thousands):

                                      For the Period Ended
                             July 20               September 30
                              2011                     2010
 CSRS                 $             645        $             869
 FERS                             4,951                    6,010
 FIRF                            27,621                  27,401
 FITP                             4,709                    5,934
 TSP                              1,974                    2,508
     Total            $           39,900         $            42,722


10. OTHER ACCRUED LIABILITIES

Civil Money Penalties are remitted annually to Treasury on September 30, the resulting liability is a delay in fund
transfer (timing issue only). The following table summarizes the other accrued liabilities (in thousands):

                                                  As of                     As of
                                                 July 20               September 30
                                                  2011                     2010
 Post-employment benefits payable          $            854        $            894
 Goods and Services                                   1,915                   2,402
 Civil Money Penalties                                  787                       -
     Total other accrued liabilities       $          3,556        $          3,296




                                                          12
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


11. NET POSITION

The land and building owned by the FHLBB were transferred to OTS under FIRREA. OTS also assumed all
furniture, fixtures and equipment previously owned by FHLBB. These assets were recorded at their existing book
values established in the FHLBB’s accounting records. Their value is reported as assumed capital the Net Position
section of the comparative Statements of Financial Position. Assumed capital totaled $41.0 million as of July 20,
2011 and September 30, 2010.

Beginning in fiscal year 2005, OTS set aside a portion of its retained earnings as contingency and special reserves.
The contingency reserve supports OTS’s ability to accomplish its mission in the case of significant revenue loss.
Unforeseeable events, such as a major change in the thrift industry, are beyond the control of OTS. The special
reserve supplements revenue from assessments and other sources that are made available to fund OTS’s annual
budget. The special reserve reduces the effect on operations of unforecasted revenue shortfalls or unbudgeted and
unanticipated requirements or opportunities. Undelivered orders represent the amount of goods and services ordered
that have not been actually or constructively received and for which amounts have not been prepaid or advanced.

The following table summarizes the components of the retained earnings (in thousands):

                                           As of                    As of
                                          July 20               September 30
                                           2011                     2010
 Contingency reserve               $        190,545        $          160,898
 Special reserve                             25,000                    60,000
 Undelivered orders                          14,315                    10,637
     Total retained earnings       $        229,860        $          231,535

12. RENTAL INCOME

In accordance with a memorandum of agreement between OTS and OCC, OTS assigned all leases to the OCC on
April 1, 2011. Previous to the agreement, OTS leased a portion of its building as office and retail space under
noncancellable operating leases expiring at various dates through 2021. Some of the leases provide renewal options.
The leases provide for annual base rent and additional rents for building operating expenses. Some leases provide
for fixed future increases in rents over the term of the lease. Due to the lease assignment on April 1, 2011 there was
no future minimum rentals received under noncancellable operating lease arrangements as of July 20, 2011. Rental
income totaled $4.3 million and $5.7 million for 2011 and 2010, respectively.

13. LEASE COMMITMENTS
In accordance with a memorandum of agreement between OTS and OCC, OTS assigned all leases to the OCC on
April 1, 2011. Previous to the agreement, OTS conducted most of its regional operations in leased facilities under
noncancellable operating leases expiring at various dates through 2020. Many of the leases contain a provision to
renew at the end of the initial term for an additional one to ten years. The rental payments are based on a minimum
rental plus a proportional share of building operating expenses and taxes. Some of the operating leases provide for
rental escalations or stated annual rental increases in the amount of base rent over the lives of the leases. The
accompanying comparative Statements of Operations and Changes in Net Position reflect rent expense on a straight-
line basis over the lives of the leases. Due to the lease assignment on April 1, 2011 there was no future minimum
rental commitments under noncancellable operating lease arrangements as of July 20, 2011. Rent expense under
noncancellable operating leases totaled $1.7 million and $4.4 million for 2011 and 2010, respectively.




                                                         13
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


14. COMMITMENTS AND CONTINGENCIES

There are approximately six lawsuits pending against the United States in the Court of Federal Claims and the Court
of Appeals for the Federal Circuit, in connection with Congress’s elimination of the capital treatment of supervisory
goodwill or other intangible assets of certain thrift institutions. These cases arise from the enactment of the
Financial Institutions Reform, Recovery and Enforcement Act of 1989. The U.S. Department of Justice
(Department of Justice) is defending these cases on behalf of the United States, and OTS is supporting the
Department of Justice in its defense efforts. Under 28 U.S.C. § 2517, any judgment issued by the Court of Federal
Claims must be paid from appropriated funds. Therefore, OTS funds, which are non-appropriated, cannot be used to
pay judgments in these cases.

In addition, there is a preliminary matter that has not yet reached the point of litigation. The claimant has submitted
an administrative claim for $5 million in damages, but OTS has not yet issued a decision on the claim. Given the
preliminary stage of this matter, OTS is not presently able to estimate either the likelihood of success or any
potential loss that may ultimately result if litigation ensues.

15. SUBSEQUENT EVENTS

OTS has evaluated subsequent events from the statements of financial position date through September 9, 2011, the
date at which the financial statements were available to be issued, and determined there are no other items to
disclose.




                                                          14
                        INDEPENDENT AUDITOR’S REPORT ON

                INTERNAL CONTROL OVER FINANCIAL REPORTING

                    AND ON COMPLIANCE AND OTHER MATTERS



To the Inspector General
U.S. Department of the Treasury



We have audited the financial statements of the U.S. Department of the Treasury, Office of
Thrift Supervision (OTS) as of July 20, 2011 and September 30, 2010, and for the periods
October 1, 2010 through July 20, 2011, and October 1, 2009 through September 30, 2010, and
have issued our report thereon dated September 9, 2011. We conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and applicable provisions of Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

Internal Control Over Financial Reporting

In planning and performing our audits, we considered the OTS’ internal control over financial
reporting as a basis for designing our auditing procedures, obtained an understanding of the
design effectiveness of internal controls, determined whether the internal controls have been
placed in operation, assessed control risk, and performed tests of the OTS’s internal controls for
the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the OTS’ internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of OTS’ internal control over
financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a

                                               15
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the OTS’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.

Compliance and Other Matters

The management of OTS is responsible for complying with laws and regulations applicable to
the OTS. As part of obtaining reasonable assurance about whether the OTS’ financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions of
applicable laws and regulations and contracts, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions was not an objective of our audit, and accordingly,
we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards or Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended.

This report is intended solely for the information and use of the Inspector General of the U.S.
Department of the Treasury, the management of the OTS, the OMB, the Government
Accountability Office and Congress and is not intended to be and should not be used by anyone
other than these specified parties.




September 9, 2011

Alexandria, VA




                                                 16
